      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




December 22, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of the Quarterly Medicaid Statement of Expenditures for the Medical
               Assistance Program in Indiana for the Quarter Ending March 31, 2009
               (A-05-09-00091)


Attached, for your information, is an advance copy of our final report on the quarterly Medicaid
statement of expenditures for the Medical Assistance Program in Indiana for the quarter ending
March 31, 2009. We will issue this report to the Indiana Family and Social Services
Administration, Office of Medicaid Policy and Planning, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or James C. Cox, Regional Inspector General for Audit Services, at (312) 353-2621 or through
email at James.Cox@oig.hhs.gov. Please refer to report number A-05-09-00091.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

December 28, 2010

Report Number: A-05-09-00091

Ms. Pat Casanova
Director
Office of Medicaid Policy and Planning
Indiana Family and Social Services Administration
402 West Washington Street, MS07
Indianapolis, IN 46207

Dear Ms. Casanova:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program in Indiana for the Quarter Ending March 31, 2009. We will
forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-09-00091 in all correspondence.


                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services

Enclosure


HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL



  REVIEW OF THE QUARTERLY
   MEDICAID STATEMENT OF
EXPENDITURES FOR THE MEDICAL
ASSISTANCE PROGRAM IN INDIANA
   FOR THE QUARTER ENDING
        MARCH 31, 2009




                        Daniel R. Levinson
                         Inspector General

                          December 2010
                          A-05-09-00091
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period
(October 1, 2008, through December 31, 2010), the Recovery Act provides an estimated
$87 billion in additional Medicaid funding based on temporary increases in States’ Federal
medical assistance percentage (FMAP). 1 Section 5000 of the Recovery Act provides for these
increases to help avert cuts in health care payment rates, benefits, or services and to prevent
changes to income eligibility requirements that would reduce the number of individuals eligible
for Medicaid. Sections 5001(a), (b), and (c) of the Recovery Act provide that a State’s increased
FMAP during the recession adjustment period will be no less than its 2008 FMAP increased by
6.2 percentage points and that a State may receive an increase greater than 6.2 percentage points
based on increases to its average unemployment rate.

CMS reimburses States based on the FMAP for the majority of Medicaid expenditures claimed.
For the quarter ended March 31, 2009, Indiana’s regular FMAP for Medicaid expenditures was
64.26 percent and the temporarily increased FMAP was 73.23 percent.

Indiana Medicaid Program

In Indiana, the Indiana Family and Social Services Administration, Office of Medicaid Policy
and Planning (State agency), administers the Medicaid program. The State agency provides
comprehensive benefits to Medicaid beneficiaries, uninsured residents with income below
specified limits, and uninsured residents at any income level if they have medical conditions that
make them uninsurable. The State agency currently has a contract with HP Enterprise Services
(HP) to serve as the state’s fiscal agent. As the fiscal agent for the State agency, HP is
responsible for processing and paying Medicaid claims.



1
  The Education, Jobs and Medicaid Assistance Act (P.L. No. 111-226) extended the recession adjustment period for
the increased FMAP through June 30, 2011.

                                                       1
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

The State agency claims Medicaid expenditures on the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (Form CMS-64). The Form CMS-64 is the
accounting statement that the State agency, pursuant to 42 CFR § 430.30(c), must submit to
CMS within 30 days after the end of each quarter. This form shows the disposition of Medicaid
funds for the quarter being reported and any prior-period adjustments. It also accounts for any
overpayments, underpayments, refunds received by the State agency, and income earned on
Medicaid funds.

The amounts reported on the Form CMS-64 and its attachments must represent actual
expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and which is available at the time the claim is filed. CMS considers claims developed
through the use of sampling (other than under an approved cost allocation or administrative
claiming plan), projections, or other estimating techniques to be estimates, which are not
allowable.

Oversight of Quarterly Medicaid Statement of Expenditures

The CMS Regional Office conducts quarterly reviews of the Form CMS-64. During these
reviews, CMS Regional office staff members review the amounts reported in the accounting
records the State agency used to support the Form CMS-64 and perform additional procedures in
accordance with the CMS Financial Review Guide for the Quarterly Medicaid Statement of
Expenditures. The Indiana State Auditor also conducts reviews of the Form CMS-64.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claim for Federal reimbursement of
Medicaid expenditures was adequately supported by actual recorded expenditures.

Scope

The State agency claimed Medicaid expenditures totaling $1.4 billion ($1 billion Federal share)
for the quarter ended March 31, 2009. Our review covered 16 line items on the Form CMS-64
totaling $1.3 billion or 93 percent of the State agency’s claimed expenditures for the quarter.
The 16 line items were: Inpatient Hospital Services – Regular Payments; Mental Health Facility
Services – Regular Payments; Nursing Facility Services; Intermediate Care Facility Services –
Mentally Retarded: Private Providers; Physicians’ Services; Outpatient Hospital Services;
Prescribed Drugs; Dental Services; Clinic Services; Home Health Services; Medicaid Health
Insurance Payments – Managed Care Organizations; Medicaid Health Insurance Payments –
Other; Home and Community-Based Services; Hospice Benefits; Federally-Qualified Health
Center; and Other Care Services.




                                               2
Our objective did not require a review of the overall internal control structure of the State
agency. Therefore, we limited our internal control review to the State agency’s procedures for
accounting, documenting, and claiming Medicaid expenditures.

We conducted fieldwork at the State agency’s offices in Indianapolis, Indiana.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws and regulations and the State plan,

    •   interviewed State agency officials to obtain an understanding of their policies and
        procedures for reporting Medicaid expenditures on the Form CMS-64,

    •   interviewed CMS personnel responsible for monitoring the Form CMS-64 and gained an
        understanding of the Form CMS-64 adjustment process,

    •   acquired an understanding of the systems used by the State agency for reporting
        Medicaid expenditures,

    •   acquired an understanding of the State agency’s Medicaid waiver program,

    •   obtained the Form CMS-64 submitted by the State agency for the quarter ending
        March 31, 2009,

    •   verified that the State agency applied proper FMAPs for current expenditures and
        adjustments,

    •   traced overall totals claimed on the Form CMS-64 to the State agency’s accounting
        records,

    •   selected and reviewed supporting documentation for 16 line items that made up
        93 percent of the total claimed, and

    •   discussed our results with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3
                                 RESULTS OF REVIEW

The State agency’s claim for Federal reimbursement of Medicaid expenditures on the Form
CMS-64 was adequately supported by actual recorded expenditures. Therefore, we are making
no recommendations to the State agency.




                                            4
